Jeffrey A. Lamken
MoloLamken LLP
The Watergate, Suite 500
600 New Hampshire Avenue, N.W.
Washington, D.C. 20037
T: 202.556.2010
F: 202.536.2010
jlamken@mololamken.com
www.mololamken.com

May 29, 2020
BY ELECTRONIC FILING
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

TCL Communication Technology Holdings Ltd., et al. v.
Telefonaktiebolaget LM Ericsson, et al., No. 19-1269

Dear Mr. Harris:
The petition in the above-captioned matter was filed and placed on the docket on
May 1, 2020. Absent an extension, the brief in opposition would be due on June 5, 2020.
Pursuant to Rules 15.3 and 30.4 of this Court, respondents Telefonaktiebolaget LM Ericsson and Ericsson Inc. hereby request a 31-day extension of time, to and including July 6,
2020, in which to file their brief in opposition.
The extension is necessary because counsel is heavily engaged with the press of
other matters,1 and because respondents have now received notice from four amici that
1

Those matters include: the preparation of a petition for a writ of certiorari in Arthrex, Inc. v. Smith &
Nephew, Inc., No. 19-1204 (U.S.), filed on April 6, 2020; the preparation of a motion to stay the mandate in
SAS Institute, Inc. v. World Programming Ltd., Nos. 19-1290(L), 19-1300 (4th Cir.), filed on April 13, 2020;
the preparation of a supplemental brief in Peterson v. Islamic Republic of Iran, No. 15-690 (2d Cir.), filed
on April 24, 2020; the preparation of a merits-stage amicus brief in support of the petitioner in Borden v.
United States, No. 19-5410 (U.S.), filed on May 4, 2020; the preparation of a reply brief in Esparraguera v.
Department of the Army, No. 19-2293 (Fed. Cir.), filed on May 5, 2020; oral argument in HTC Corporation
v. Telefonaktiebolaget LM Ericsson, No. 19-40566 (5th Cir.), argued on May 6, 2020; the preparation of a
petition for a writ of certiorari in Indian River County v. U.S. Department of Transportation, No. 19-1304
(U.S.), filed on May 18, 2020; the preparation of a brief in opposition to a petition for a writ of certiorari in
Comcast Corp., et al. v. International Trade Commission, et al., No. 19-1173 (U.S.), filed on May 26, 2020;
the preparation of an opening brief in In re: Syngenta AG MIR 162 Corn Litigation, No. 19-3008 and
related cases (10th Cir.), currently due on June 1, 2020; the preparation for oral argument in Genentech,
Inc. v. Immunex Rhode Island Corp., No. 19-2155 (Fed. Cir.), currently scheduled for June 3, 2020; the
preparation of a petition for rehearing in Ericsson Inc. v. TCL Communication Technology Holdings Ltd.,

Honorable Scott S. Harris

-2-

May 29, 2020

they may file briefs in support of the petition on June 5, 2020. The extension will permit
the brief in opposition to address both the arguments in the petition and any contentions
of amici.
Thank you very much for your time, attention, and assistance. Please do not
hesitate to call me if you have any questions or concerns.
Sincerely,

Jeffrey A. Lamken
cc:

See Attached Service List

et al., No. 18-2003 (Fed. Cir.), currently due June 12, 2020; and the preparation of a reply brief in Amgen
Inc. v. Sanofi, No. 20-1074 (Fed. Cir.), currently due on June 22, 2020.

SERVICE LIST
Seth P. Waxman
Wilmer Cutler Pickering Hale & Dorr LLP
1875 Pennsylvania Ave. NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com
Stephen S. Korniczky
Sheppard Mullin Richter & Hampton LLP
12275 El Camino Real Suite 200
San Diego, CA 92130
(858) 720-8900
skorniczky@sheppardmullin.com
Karin Dougan Vogel
Sheppard Mullin Richter & Hampton LLP
501 West Broadway 19th Floor
San Diego, CA 92101
(619) 338-6500
kvogel@sheppardmullin.com

